     DEPARTMENT OF HEALTH & HUMAN SERVICES                                  OFFICE OF INSPECTOR GENERAL

                                                                             Office of Audit Services, Region III
                                                                             Public Ledger Building, Suite 316
                                                                             150 S. Independence Mall West
                                                                             Philadelphia, PA 19106-3499
June 16, 2010

Report Number: A-03-08-00208

Julie Hudman, Ph.D.
Director
Department of Health Care Finance
825 North Capitol Street NE, Suite 500
Washington, DC 20001

Dear Dr. Hudman:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector General
(OIG), final report entitled Review of Medicaid Management Information System Prepayment Edit
in the District of Columbia. We will forward a copy of this report to the HHS action official noted
on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported. We
request that you respond to this official within 30 days from the date of this letter. Your response
should present any comments or additional information that you believe may have a bearing on the
final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly available
reports on the OIG Web site. Accordingly, this report will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
Robert Baiocco, Audit Manager, at (215) 861-4486 or through email at
Robert.Baiocco@oig.hhs.gov. Please refer to report number A-03-08-00208 in all correspondence.


                                               Sincerely,



                                               /Stephen Virbitsky/
                                               Regional Inspector General
                                                for Audit Services

Enclosure
Page 2 – Julie Hudman, Ph.D.

Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
  Department of Health & Human Services
             OFFICE OF

        INSPECTOR GENERAL





REVIEW OF MEDICAID MANAGEMENT

INFORMATION SYSTEM PREPAYMENT

EDIT IN THE DISTRICT OF COLUMBIA





                        Daniel R. Levinson

                         Inspector General


                            June 2010

                          A-03-08-00208

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                   EXECUTIVE SUMMARY


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In the District of Columbia (the District), the
Department of Health Care Finance (the State agency) administers the Medicaid program.

Section 1903(r) of the Social Security Act (the Act) requires all States with Medicaid programs
to have CMS-approved mechanized claims processing and information retrieval systems.
Pursuant to The State Medicaid Manual, CMS Pub. No. 45, CMS requires States to maintain a
Medicaid Management Information System (MMIS). The purpose of the MMIS is to enable
States to efficiently process claims, control program expenditures, monitor service utilization,
and stay informed of program trends. Since 2001, the State agency has contracted with
Affiliated Computer Systems, Inc. (ACS), to manage and maintain its MMIS.

Federal regulations (42 CFR § 447.45(f)(1)(iii)) require States to conduct prepayment claims
review to “ ... verify that the claim does not duplicate or conflict with one reviewed previously or
currently being reviewed.” Accordingly, States’ MMIS includes claims processing edits to
identify claims with possible errors. The District’s MMIS edit 103 identifies possible conflicts
and flags the claim for one of three dispositions: pay the claim, suspend the claim for further
review, or deny the claim. During the period of our audit, flagged claims were automatically
paid.

Between January 1, 2005, and December 31, 2007, MMIS edit 103 identified 99,424 claims
totaling $71 million that represented claims already paid and potential conflicts. We based our
review on 32,295 of the claims grouped into 7,646 matches totaling $68.6 million ($48 million
Federal share).

OBJECTIVE

Our objective was to determine whether the State agency’s MMIS edit 103 properly prevented
overpayments for conflicts.

SUMMMARY OF FINDINGS

The State agency’s MMIS edit 103 did not properly prevent overpayments for conflicts. We
reviewed a sample of 116 matches with possible conflicts. The State agency correctly paid all of
the claims in 56 matches but made unallowable payments in 60 matches (Appendix C).




                                                 i
As a result, we estimate that the State agency made overpayments of at least $742,856 ($520,000
Federal share) for matches with conflicts. These overpayments occurred because the State
agency did not review the claims flagged by MMIS edit 103 to determine which claims in the
matches were allowable. Instead, the MMIS was set to automatically pay the flagged claims and
neither ACS nor the State agency performed a follow up review to determine whether the
flagged claims were allowable. In February 2008, the State agency took corrective action by
instructing ACS to deny all claims flagged by MMIS edit 103.

RECOMMENDATION

We recommend that the State agency refund to the Federal Government $520,000 for payments
to providers with conflicting claims identified by MMIS edit 103.

STATE AGECNY COMMENTS

In its written comments on our draft report, the State agency concurred with our recommendation.
The State Agency’s comments are included in their entirety as Appendix D.




                                                 ii
                                                   TABLE OF CONTENTS
                                                                                                                               Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
            The Medicaid Program ......................................................................................1
            Medicaid Management Information System ......................................................1
            Prepayment Review and Edits ...........................................................................1
            Prior Audit. ........................................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
            Objective ............................................................................................................2
            Scope ..................................................................................................................2
            Methodology ......................................................................................................2

FINDINGS AND RECOMMENDATION.......................................................................3

          FEDERAL AND DISTRICT REQUIREMENTS ...................................................4

          OVERPAYMENTS FOR CONFLICTS..................................................................4

          NO FOLLOW-UP REVIEW ...................................................................................5

          CORRECTIVE ACTION TAKEN ..........................................................................5

          RECOMMENDATION ...........................................................................................6

          STATE AGENCY COMMENTS ............................................................................6

APPENDIXES

     A: SAMPLING METHODOLOGY

     B: SAMPLE RESULTS AND ESTIMATES

     C: 60 SAMPLE MATCHES WITH ERRORS

     D: STATE AGENCY COMMENTS
                                       INTRODUCTION


BACKGROUND

The Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the Medicaid program. Each
State administers its Medicaid program in accordance with a CMS-approved State plan.
Although the State has considerable flexibility in designing and operating its Medicaid program,
it must comply with applicable Federal requirements. In the District of Columbia (the District),
the Department of Health Care Finance (State agency) administers the Medicaid program.

The District’s Federal medical assistance percentage (FMAP) is 70 percent. The Department of
Health & Human Services (HHS) advances funds equal to the Federal share of the estimated cost
of the program on a quarterly basis. CMS may require adjustment of the grant award for the
Federal share of firmly established overpayments to providers. Improper payments to providers
are not medical assistance under the State plan within the meaning of sections 1903(a)(1) and
1905(a) of the Act. Therefore, Federal funding in such payments constitutes an overpayment
which must be adjusted under section 1903(d)(2)(A). Accordingly, after reviewing the State’s
form CMS-64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance
Program, the Secretary may adjust future payments to reflect any overpayment or underpayment
that the State made in prior quarters.

Medicaid Management Information System

Section 1903(r) of the Act requires all States with Medicaid programs to have a CMS-approved
mechanized claims processing and information retrieval system, called a Medicaid Management
Information System (MMIS), as defined in Federal regulations (45 CFR § 95.605). The State
Medicaid Manual, CMS Pub. No. 45, requires States to maintain an MMIS to efficiently process
claims, control program expenditures, monitor service utilization, and stay informed of program
trends. The State agency contracts with Affiliated Computer Systems, Inc. (ACS), to manage
and maintain the District’s MMIS.

Prepayment Review and Edits

Federal regulations (42 CFR § 447.45(f)(1)(iii)) require that States conduct prepayment claims
review to verify “ ... that the claim does not duplicate or conflict with one reviewed previously or
currently being reviewed.” Accordingly, States’ MMIS include claims processing edits to
identify claims with possible errors. The State agency’s MMIS edit 103 identifies claims with
possible conflicts and flags them for one of three general dispositions: pay the claim, suspend
the claim for further review, or deny the claim. During the period of our audit, claims flagged
under MMIS edit 103 were automatically paid.



                                                 1

Prior Audit

In September 2008 we issued a report that reviewed claims paid to a non-emergency
transportation (NET) provider in the District. 1 We identified claims that the MMIS had flagged
under edit 103 because they conflicted with claims paid to another provider for the same services
and for the same beneficiary on the same service dates. In all instances, the State agency paid
the flagged claims without any further review.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s MMIS edit 103 properly prevented
overpayments for conflicts.

Scope

Our audit period covered January 1, 2005, through December 31, 2007. We based our review on
32,295 claims grouped into 7,646 “matches” totaling $68,576,999 ($48,003,899 Federal share). 2
A match included the flagged claim and any other paid claim which MMIS edit 103 identified as
a possible conflict.

We also determined that claims questioned in our prior audit, and the corresponding matching
claims, appeared in the sampling population for this audit. We therefore reduced our estimated
results by $8,894 ($6,225 Federal share), which represents the total value of those questioned
and matching claims.

During our audit, we did not review the overall internal control structure of the District or the
Medicaid program. Rather, we limited our internal control review to the controls related to the
objective of our audit.

We conducted fieldwork at the State agency’s offices and visited 16 providers in the District.

Methodology

To accomplish our objective, we:

      •	 reviewed applicable Federal and State laws, regulations, and guidance, including the
         State plan and relevant Departmental Appeals Board decisions;



1
 Review of Non-Emergency Transportation Services Provided by Epps Transportation Services, Inc., From
January 1, 2004, Through December 31, 2006 (A-03-07-00204).
2
    Some matches included more than one flagged claim.


                                                         2

       •	 held discussions with State agency and ACS officials to obtain an understanding of
          MMIS edit 103 evaluation criteria and disposition options;

       •	 obtained from ACS a database that included all claims flagged by MMIS edit 103 during
          our audit period and the related claims with potential conflicts;

       •	 identified 99,424 claims that related to MMIS edit 103: 49,437 flagged claims and
          49,987 previously paid claims that the MMIS identified as possible conflicts;

       •	 eliminated 67,129 medical doctor claims because they represented 68 percent of the
          claims but only 3 percent of the total amount claimed;

       •	 grouped the remaining 32,295 flagged and related claims into 7,646 matches based on the
          MMIS edit 103 criteria. Each match included at least one flagged claim and a related
          paid claim;

       •	 selected a stratified random sample of 116 matches for review;

       •	 reviewed State agency and provider documents to determine whether the State agency
          resolved conflicts pursuant to Federal and District requirements; and

       •	 estimated the dollar impact of the unallowable Federal reimbursement claimed in the total
          population of 7,646 matches.

Appendix A contains the details of our sample design and methodology, and Appendix B
contains our sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATION

The State agency’s MMIS edit 103 did not properly prevent overpayments for conflicts. We
reviewed a sample of 116 matches with possible conflicts. The State agency correctly paid all of
the claims in 56 matches but made unallowable payments in 60 matches (Appendix C).

As a result, we estimate that the State agency made overpayments of at least $742,856 ($520,000
Federal share) for matches with conflicts. 3 These overpayments occurred because the State
agency did not review the claims flagged by MMIS edit 103 to determine which claims in the
matches were allowable. Instead, the MMIS was set to automatically pay the flagged claims and
neither ACS nor the State performed a follow up review to determine whether the flagged claims

3
    We reduced the lower limit based on our estimate, $751,750, by $8,894 that we questioned in a previous report.


                                                           3

were allowable. In February 2008, the State agency took corrective action by instructing ACS to
deny all claims flagged by MMIS edit 103.

FEDERAL AND DISTRICT REQUIREMENTS

Improper payments to providers are not medical assistance under the State plan within the
meaning of sections 1903(a)(1) and 1905(a) of the Act. Federal regulations (42 CFR §
447.45(f)) require that the State must conduct prepayment claims review to verify “ ... that the
claim does not duplicate or conflict with one reviewed previously or currently being reviewed.”
Accordingly, the States’ MMIS must include claims processing edits to identify suspect claims.

The Office of Management and Budget (OMB) Circular A-87, Cost Principles for State, Local,
and Indian Tribal Governments, contains general cost principles for determining whether costs
incurred by State and local governments are allowable as charges to Federal grants. The circular,
Att. A(C), requires that, to be allowable, costs must be adequately documented and authorized or
not prohibited under State or local laws or regulations. Costs must also benefit the program.
Consistent with OMB Circular A-87, section 2497.1 of CMS’s State Medicaid Manual states that
“Federal financial participation (FFP) is available only for allowable actual expenditures” and
“[e]xpenditures are allowable only to the extent that, when a claim is filed, you have adequate
supporting documentation in readily reviewable form to assure that all Federal requirements have
been met.”

Claims must also comply with the Medicaid State plan, which establishes allowable services
pursuant to Section 1905(a) of the Act. The District’s State plan limits personal care services to
8 hours per day, unless the provider requests and receives prior authorization to exceed these
limits. 4 Att. 4.19C of the State plan allows a nursing facility or intermediate care facility for the
mentally retarded to claim a maximum of 18 days per year to hold the bed for a beneficiary who
is also claimed for those days by an acute care hospital.

OVERPAYMENTS FOR CONFLICTS

The State agency’s MMIS edit 103 identified and flagged claims matched for conflicting
services for the same beneficiary on the same dates of service. We determined that 60 matches
we sampled included overpayments to providers as follows.

    •	 For 24 matches, 23 providers did not support their claims with sufficient documentation
       as required by the Manual. In many cases the providers were no longer in business and
       we could not contact them. Some providers could not locate supporting documentation.

    •	 For 21 matches, 12 providers admitted that they had rendered no service and were
       therefore not eligible for payment pursuant to section 1905(a) of the Act. In 12 of the
       matches the State agency paid unrelated providers; however, in 9 matches the State
       agency made payments under two different provider numbers owned by the same

4
 Supplement 1 to Attachment 3.1-A, 24.F.1, page 29, as implemented in the District of Columbia Municipal
Regulations (29 DCMR § 5009.2).



                                                       4

       company. Only one service was rendered and therefore only one of the payments was
       allowable.

   •	 For five matches, eight providers claimed non-emergency transportation services for
      beneficiaries who either received the corresponding Medicaid covered service at their
      residences or received no corresponding Medicaid covered service at all. These costs did
      not benefit the program and were not allowable for a Federal share.

   •	 For four matches, two providers each billed 8 hours per day (16 total hours per day) for
      personal care services for the same patient on the same day without the prior
      authorization that the State plan requires.

   •	 For four matches, three institutional facilities claimed days that exceeded State plan
      limits to reserve beds for resident beneficiaries who received inpatient services at acute
      care hospitals.

   •	 For two matches, both the discharging and the admitting institutional facilities claimed a
      resident day when a beneficiary transferred from one to another, although the State plan
      allows only the admitting facility to claim the resident day.

Based on our sample results, we estimated that the State agency improperly claimed at least
$520,000 (Federal share) for payments it made that were not allowable because they were for
matches with conflicting claims (Appendix B).

NO FOLLOW-UP REVIEW

The MMIS automatically paid claims flagged for conflicts and then posted them on a “Claims
Exception Report” because the disposition code for MMIS edit 103 was set to “pay but report.”
However, neither the State agency nor ACS subsequently reviewed for disposition the claims on
the report. Officials from the State agency told us that it did not perform a follow up review of
the flagged claims. Representatives from ACS explained that their claims resolution staff would
only perform a follow up review if the disposition code for the edit was set to suspend payment
for the claims.

We looked back to 2002, when the State agency contracted with ACS to administer the State
MMIS, and determined that the disposition code for MMIS edit 103 was set to “deny” flagged
claims as of April 2002. Disposition changed to “suspend” in July 2002, and in July 2004 it was
set to “pay but report,” where it remained until February 2008. Neither the State agency nor its
fiscal agent could provide a reason why the disposition code changed to “pay but report.”

CORRECTIVE ACTION TAKEN

On February 14, 2008, the State agency instructed ACS to change the disposition code for MMIS
edit 103 to “deny.” The MMIS now automatically denies and returns all provider claims flagged
as potential conflicts under MMIS edit 103. We believe that this change should prevent future
overpayments.


                                                5

RECOMMENDATION

We recommend that the State agency refund to the Federal Government $520,000 for payments
to providers with conflicting claims identified by MMIS edit 103.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency concurred with our recommendation.
The State agency’s comments are included in their entirety as Appendix D.




                                                 6

APPENDIXES

                                                                                                     Page 1 of 2


                          APPENDIX A: SAMPLING METHODOLOGY


POPULATION

The population consisted of provider claims matched for conflicts for Medicaid services from
January 1, 2005, through December 31, 2007, and claimed by the Department of Health Care
Finance (the State agency).

SAMPLING FRAME

The sampling frame consisted of 7,646 matches totaling $68,576,999. The matches were
developed by comparing two claims database files, “Excepted” and “Related,” extracted from the
State’s Medicaid Management Information System (MMIS). 1

SAMPLE UNIT

The sample unit was a match comprising one excepted claim and one or more related claims.

SAMPLE DESIGN

We used a stratified random sample to evaluate the matches. The strata were determined by the
following criteria:

        ●     stratum 1: matches with total paid amount less than $1,000
        ●     stratum 2: matches with total paid amount between $1,000 and $200,000
        ●     stratum 3: matches with total paid amount greater than $200,000

SAMPLE SIZE

We selected a sample of 116 matches divided into 3 strata as follows:


                                            Total            Total             Sampled           Sampled
                      Range                Matches          Dollars            Matches            Dollars
Stratum 1           < $1,000               4,470            $944,427               50                $9,380
Stratum 2      $1,000 - $200,0000          3,160          62,919,560               50               757,865
Stratum 3          >$200,000                  16           4,713,012               16             4,713,012
TOTALS                                     7,646         $68,576,999              116            $5,480,257




1
  Excepted claims were flagged under MMIS edit 103 as possible conflicts. Related claims are the original
submitted claims compared to the conflicting claims.
                                                                                       Page 2 of 2


SOURCE OF RANDOM NUMBERS

We used an approved Office of Inspector General, Office of Audit Services, statistical software
package to generate the random numbers for selecting the matches.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in stratum 1 from 1 to 4,470. After generating 50
random numbers, we selected the corresponding items for stratum 1. We consecutively
numbered the sample units in stratum 2 from 1 to 3,160. After generating 50 random numbers,
we selected the corresponding items from stratum 2. We selected all of the 16 matches in
stratum 3. A list of 116 matches was then created.

ESTIMATION METHODOLGY

We used Office of Inspector General, Office of Audit Services, statistical software to estimate
the amount of overpayments.
    APPENDIX B: SAMPLE RESULTS AND ESTIMATES


                         Sample Results

                                       Matches           Value of
            Sample        Value of        With          Unallowable
Stratum       Size        Sample         Errors           Costs
   1          50            $9,380         41             $3,885
   2          50           757,865         18             10,404
   3          16         4,713,012          1                 183
 Total       116        $5,480,257         60            $14,472


                 Estimates of Unallowable Costs
  (Limits Calculated for a 2-sided 90-Percent Confidence Interval)


             Point estimate                $1,005,027

             Lower limit                     $751,750

             Upper limit                   $1,258,305
                                                                                                  Page 1 of 2

                        APPENDIX C: 60 SAMPLE MATCHES WITH ERRORS


         Deficiency
  1      Documentation not adequate
  2      Service not provided
  3      No associated medical service or no transportation required
  4      Personal care services exceeded 8 hours per day without prior authorization
  5      Exceeded 18 day limit for billing reserved bed days
  6      Counted discharge day as resident day


          Number
Sample      of          Provider                                         Match         Total        Total
Number    Errors          Type           1   2    3     4     5    6     Total         Errors     Allowable
   2         1       Laboratory              X                            $10.60          $5.30        $5.30
   3         2       Laboratory              X                              10.60          5.30         5.30
   4         3       Laboratory              X                              14.00          7.00         7.00
   5         4       Podiatrist              X                              17.90          8.95         8.95
   9         5       Podiatrist         X                                   27.88         19.37         8.51
  10         6       Child Hospital          X                              30.00         15.00        15.00
  11         7       Podiatrist              X                              36.26         18.13        18.13
  12         8       Podiatrist              X                              43.34         21.67        21.67
  13         9       NET                X                                   55.00         27.50        27.50
  14        10       NET                          X                         55.00         55.00         0.00
  15        11       HCBS Waiver        X                                   63.00         63.00         0.00
  16        12       HCBS Waiver        X                                   63.00         63.00         0.00
  17        13       NET                X                                   66.00         33.00        33.00
  18        14       NET                X                                   66.00         33.00        33.00
  19        15       NET                X                                   66.00         33.00        33.00
  20        16       NET                          X                         66.00         66.00         0.00
  21        17       NET                          X                         66.00         66.00         0.00
  22        18       NET                          X                         66.00         66.00         0.00
  23        19       NET                X                                   71.50         35.75        35.75
  24        20       NET                X                                   82.50         41.25        41.25
  25        21       NET                X                                   82.50         41.25        41.25
  27        22       Physician D.O.          X                            102.24          39.18        63.06
  28        23       NET                X                                 114.75          50.25        64.50
  29        24       HHA                X                                 130.00          65.00        65.00
  30        25       NET                X                                 132.00          99.00        33.00
  31        26       NET                X                                 146.50          77.75        68.75
  32        27       NET                          X                       154.50         154.50         0.00
  33        28       NET                X                                 163.28          81.66        81.62
  34        29       Day Treatment           X                            192.50          92.81        99.69
  35        30       NET                X                                 196.35          97.50        98.85
  36        31       Ambulance          X                                 216.86         108.43       108.43
  37        32       HCBS Waiver             X                            261.12         130.56       130.56
                                                                                            Page 2 of 2


       Number
Sample   of          Provider                                       Match       Total       Total
Number Errors          Type          1     2    3    4     5    6    Total      Errors    Allowable
   38    33       NET                X                                $264.00    $132.00      $132.00
   39    34       NET                     X                            264.00     132.00       132.00
   40    35       Clinic             X                                 265.10     132.55       132.55
   41    36       HHA                     X                            324.48     162.24       162.24
   42    37       HCBS Waiver        X                                 358.08     249.92       108.16
   44    38       NET                X                                 396.00     198.00       198.00
   45    39       NET                X                                 396.00     198.00       198.00
   48    40       HHA                     X                            783.04     522.24       260.80
   49    41       Day Treatment      X                                 874.50     437.25       437.25
   52    42       HCBS Waiver             X                          1,200.00     600.00       600.00
   53    43       Day Treatment           X                          1,200.00     600.00       600.00
   54    44       HHA                                X               1,304.80     652.80       652.00
   55    45       HHA                                X               1,304.80     652.00       652.80
   56    46       HHA                                X               1,304.80     652.00       652.80
   57    47       HHA                                X               1,304.80     652.00       652.80
   58    48       HHA                     X                          1,305.60     652.80       652.80
   59    49       HHA                     X                          1,305.60     652.80       652.80
   60    50       HHA                     X                          1,305.60     652.80       652.80
   61    51       Day Treatment           X                          1,342.00     488.00       854.00
   62    52       Day Treatment           X                          1,342.00     366.00       976.00
   63    53       Day Treatment           X                          1,708.00     732.00       976.00
   64    54       Day Treatment      X                               2,623.50   1,311.75     1,311.75
   67    55       NF                                       X         4,510.02     610.02     3,900.00
   68    56       NF                                            X    5,500.96     192.61     5,308.35
   69    57       ICF/MR                                        X    8,864.73     251.64     8,613.09
   70    58       NF                                       X         9,318.42     341.00     8,977.42
   77    59       NF                                       X        12,698.72     343.22   12,355.50
  109    60       NF                                       X       268,972.56     183.16 268,789.40
                  TOTALS             24 21      5    4     4    2 $335,211.29 $14,471.91 $320,739.38


GLOSSARY

ICF/MR        Service provided in an intermediate care facility for the mentally retarded
HCBS Waiver   Nursing home level care provided in a home or community-based setting
HHA           Service provided by a home health agency
NET           Non-emergency transportation service
NF            Skilled nursing facility service
                          APPENDIX D: STATE AGENCY COMMENTS




                        GOVERNMENT OF THE DISTRlCf OF COLUMBIA 

                              Department of Health Care Finance 




                                                   * **

Office of the Director


May 24, 2010

Stephen Virbitsky
Regional Inspector General for Audit Services
Office: of Inspector General
Office o f Audit Services, Region ill
Public Ledger Building, Suite 3 16
150 S.1ndependeoce Mall West
Philadelphia. PA 191(16...3499

Dear Mr. Virbitsky:

Thank you for the opportunity to provide corrunents on your draft report, "Review of Medicaid
Management lnfOnnatiOD System Prepaymcot Edit in the District ofColwnbia... (A·Ol-08­
00(08).

Your report reviewed the District' s use of claims processing edit 103, which identifies claims
that J1U1y have potential conflicts with other claims. During the study time period-January I,
200S though December 3 1, 2007~your audit identified a sample of cllums which were used to
estimate a totaJ 0($520,000 (Federal share) in payments that you detennined 10 be not allowable
because conflicts on the claims were not reviewed prior to payment. You recommended that we
repay to the Federal government your estimated amount 0[S520.000.

As yOUT report indicates. the District's claims processing contractor did nOl have the 103 edit
tumed on during the study time period. As your report also notes, this edit was turned back M
during February 2008, and claims that are flagged by the edit are now denied. This action
prevents future overpayments from being made on claims that arc flagged by the 103 edit

We concur with your recommendation, and will repay the Federal government the $520,000, per
your calculations.


S"'""?l
Julie
oirCd:or
        ~l. PhD.
        ,.


             125 North Capitol Street, N.E., WashingtOn, D.C. 20002 (202) 442-5.911 Fax (2(}2) .....2-41'90
